<html>
<title> - [H.A.S.C. No. 112-123]UNDERSTANDING FUTURE IRREGULAR WARFARE CHALLENGES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                         [H.A.S.C. No. 112-123]
 
           UNDERSTANDING FUTURE IRREGULAR WARFARE CHALLENGES

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 27, 2012


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                      U.S. GOVERNMENT PRINTING OFFICE

  73-795                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2047504f604355535448454c500e434f4d0e">[email&#160;protected]</a>  






           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHLEEN C. HOCHUL, New York
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      James Mazol, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, March 27, 2012, Understanding Future Irregular Warfare 
  Challenges.....................................................     1

Appendix:

Tuesday, March 27, 2012..........................................    31
                              ----------                              

                        TUESDAY, MARCH 27, 2012
           UNDERSTANDING FUTURE IRREGULAR WARFARE CHALLENGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Jones, Dr. Seth, Senior Political Scientist, RAND Corporation....     3
Killebrew, COL Robert, USA (Ret.), Non-Resident Senior Fellow, 
  Center for a New American Security.............................     4
Maxwell, COL David, USA (Ret.), Associate Director, Security 
  Studies Program, Georgetown University.........................     6

                                APPENDIX

Prepared Statements:

    Jones, Dr. Seth..............................................    37
    Killebrew, COL Robert........................................    54
    Langevin, Hon. James R.......................................    36
    Maxwell, COL David...........................................    63
    Thornberry, Hon. Mac.........................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    97






           UNDERSTANDING FUTURE IRREGULAR WARFARE CHALLENGES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                           Washington, DC, Tuesday, March 27, 2012.
    The subcommittee met, pursuant to call, at 2:33 p.m. in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order. One of our 
witnesses is on the way and will be here shortly, but I think 
we will go ahead and get started because I understand he is 
just moments away from being here. I appreciate everybody's 
patience while we were over voting.
    Last fall, this subcommittee held a hearing to begin 
exploring the possibility that what we call irregular warfare 
may be a regular, that is frequent, challenge for us in the 
future, as, in fact, it certainly has been in the past. And we 
began to explore how we ensure that the hard-won lessons of the 
past decade are not simply shelved and forgotten as we ``get 
back to normal.''
    Today we want to go a little deeper in looking at what 
types of future irregular warfare challenges we are likely to 
face? What strategies are best suited to deal with these future 
challenges? And what examples or models may exist to support 
those strategies and effectively deal with the irregular 
challenges?
    Let me just say that I have read all of the statements from 
all of the witnesses and they were excellent. Each of you 
provided well-written statements that were thought-provoking. I 
have to say, Colonel Maxwell, I got some chuckles out of your 
description of the naming game that goes on in the Pentagon and 
it made me feel better. Because sometimes I hear all of these 
terms that describe the same thing, and as I am trying to sort 
through what the difference between this, that, or the other 
thing is, it is somewhat reassuring to know that other people 
have the same issue and that part of what is going on is just 
to make sure we don't understand what is going on. But I 
appreciate very much the statements that each of you provided 
and I look forward to the subcommittee getting down into asking 
more questions about them.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 35.]
    Mr. Thornberry. First, though, I would turn to the 
distinguished ranking member Mr. Langevin for any opening 
statement he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. And I want to thank 
our witnesses for appearing before us today. Congress, as we 
know, has the constitutional responsibility to ensure that our 
military is fully prepared to defend our country and our vital 
interests. To do that effectively, we must understand the full 
range of potential security challenges that we face. Irregular 
warfare is just such a challenge and it is fitting that we are 
addressing it today in the Emerging Threats and Capabilities 
Subcommittee.
    The term IW [Irregular Warfare] evokes mental images of 
shadowy adversaries on uncertain or ill-defined battlefields, 
and there is certainly some truth to that. Terrorism is a 
classic form of IW and--but it is only one subset. Enemies will 
attempt to forgo a direct confrontation in one of our areas of 
strength, instead seeking an asymmetrical advantage in an area 
where we may be less prepared or less able to defend ourselves. 
For example, our formidable joint formations of air, ground, 
sea, and air forces and space forces, rather, quickly become 
ineffective if a cyber attack disrupts our command and control 
or the critical infrastructure on which our bases depend. And 
even our most precise weapons become difficult to employ 
against an enemy who has embedded himself within a civilian 
population.
    So the nature of warfare is, of course, uncertain, but what 
is certain is that potential challengers will seek ways to 
circumvent our strengths and exploit our weaknesses. Therefore, 
it is our responsibility to educate ourselves about developing 
trends, capabilities, technologies, and tactics that an 
adversary might use to find an advantage against us or our 
partners and then posture our forces properly to meet that sort 
of threat. We need to develop the agile thinking necessary to 
make prudent defense choices, and this hearing is an important 
part of that process. Thank you, Mr. Chairman, and I yield 
back.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 36.]
    Mr. Thornberry. Thank you. We are pleased to have before us 
today to testify, Dr. Seth Jones, senior political scientist 
with the RAND Corporation. When he gets here, Dr.--I mean 
Colonel Robert Killebrew, everybody is a doctor today for some 
reason--Colonel Robert Killebrew, U.S. Army retired non-
resident senior fellow at the Center for a New American 
Security, and Colonel David Maxwell, U.S. Army retired, 
Associate Director, Security Studies Program at Georgetown 
University. Without objection, your complete written statements 
will be made part of the record. And if you would, we would 
appreciate it if you could summarize your comments. We will run 
the clock for 5 minutes, that is a rough guide just to help you 
keep track of time. But then after you summarize your 
statements, then we would proceed to questions. So we will get 
started. Dr. Jones, thanks for being here, please proceed.

 STATEMENT OF DR. SETH JONES, SENIOR POLITICAL SCIENTIST, RAND 
                          CORPORATION

    Dr. Jones. Thank you very much for having this hearing, 
Chairman Thornberry and Ranking Member Langevin. It is an honor 
to be here. What I will do is I will briefly touch on the three 
questions that we were asked to look at, what types of 
irregular warfare challenges is the U.S. likely to face? What 
strategies are best suited? And what are existing examples or 
models to manage irregular warfare challenges? But let me just 
say, based partly on my own experience in conducting irregular 
warfare in Afghanistan, that we do face considerable 
challenges. By today, in Afghanistan, we have about 432,000 
counterinsurgency forces. We have spent over $100 billion per 
year, at least this fiscal year and deployed a range of 
sophisticated platforms of systems.
    The Taliban and its allies, on the other hand, have 
deployed between 20- and 40,000 forces, a ratio of nearly 11-
to-1 in favor of counterinsurgents, and had revenues of between 
$100 and $200 million per year. A ratio of about 500-to-1 in 
favor of counterinsurgents. Yet the Taliban's ability to 
utilize limited resources and sustain a prolonged insurgency, I 
do think highlights some of the challenges we face on irregular 
warfare.
    What I would like to do briefly is then first touch on 
irregular warfare challenges. There have been some individuals 
who have argued that groups like Al Qaeda are on the verge of 
strategic defeat. What I would argue is that we face a range of 
irregular warfare challenges in the future. They include 
threats from nonstate actors, including terrorist groups like 
Al Qaeda, and Hezbollah; drug trafficking organizations, 
including Mexican cartels and others; violent global activists, 
including some of the anarchist groups that have appeared in 
some of the major G8 and other summits. Also from states, those 
that challenge purposely the United States through irregular 
warfare, including Iran and those who do so inadvertently 
because of weak governance. One might think of our neighbor to 
the border, for example, Mexico more on the weak governance 
side.
    I think as we look at the future, even as we look at Al 
Qaeda, and I have included a map, this is figure 1 in my 
testimony, indicating a range of areas where we have Al Qaeda 
involvement in irregular warfare, either through its core, its 
key affiliates, or its key allies. That includes a range of 
countries in Africa, especially North Africa, but including 
countries of concern like Nigeria, the Middle East, including 
expansion in countries like Syria, South Asia, and then in East 
Asia and countries like the Philippines and Indonesia.
    I would also highlight several other challenges that are 
worth mentioning; one is interagency cooperation. My personal 
view, there have been some improvements between organizations 
like United States Special Operations Forces and the Central 
Intelligence Agency as demonstrated, in part, during the bin 
Laden raid of improved interagency cooperation in irregular 
warfare. But I would submit that including, based on my own 
experience in theater and on the ground, there clearly are 
challenges between the Department of Defense and other civilian 
agencies, including the Department of State and USAID [United 
States Agency for International Development] on a whole range 
of strategic, operational, and tactical issues. We can get into 
more of that more later.
    I would also highlight issues and concerns about a Vietnam 
war syndrome. In an effort to forget lessons from the past, 
issues related to the health of U.S. forces because of 
irregular warfare, both past, current, and future. And in a 
range of technological challenge, I have noted some future 
projections on Wi-Fi and mobile devices; it is part of figure 2 
in my testimony just to give a sense of stuff that is possibly 
coming down the pike.
    On strategies, I have highlighted a range of strategies 
that the U.S. should and could consider. Let me just briefly 
note for the purposes of this abbreviated testimony that I 
would remind individuals that as we talk mostly about 
supporting counterterrorism and counterinsurgency, we also not 
forget as we experienced in 2001, the United States may also 
serve in the role of supporting insurgent groups as we have in 
Libya, as we did in Afghanistan, and as we may in Syria as 
well. There are a range of issues that need to be addressed 
along those lines.
    Models, and I won't go into details here, but we can in the 
testimony. I would highlight Village Stability Operations and 
Afghan Local Police as being a useful model to drill down on 
one aspect of irregular warfare.
    And then, let me just conclude by saying there are a few 
things I would submit are worth considering. One is on the 
organizational side, continuing to fund programs such as 1208 
and VSO [Village Stability Operations] and ALP [Afghan Local 
Police], the latter of which are paid for using Afghan security 
forces funds; issues related to health of U.S. forces; 
continuing training and education for irregular warfare and 
that deals with the war colleges. And then efforts to consider 
assessing interagency cooperation as useful in the future. So 
with that, I will conclude my testimony and hand back to you, 
sir.
    [The prepared statement of Dr. Jones can be found in the 
Appendix on page 37.]
    Mr. Thornberry. Thank you. Colonel Killebrew, have you had 
a chance to catch your breath?

  STATEMENT OF COL ROBERT KILLEBREW, USA (RET.), NON-RESIDENT 
       SENIOR FELLOW, CENTER FOR A NEW AMERICAN SECURITY

    Colonel Killebrew. I have, sir. Thank you. And as self-
punishment for that, I will only read part of my testimony, 
because you have seen it all already. I apologize for being 
late.
    I was asked to come and talk about the future of irregular 
warfare and insurgency. I am a senior fellow at the Center for 
New American Security, which means I am probably the oldest guy 
in the room. And I need to make the point that the remarks I am 
going make here complement my research there, but my remarks 
are my own not, CNAS [Center for a New American Security].
    You have my testimony, there are some paragraphs I would 
like to read to you just to make the point and to set the tone. 
Insurgencies have three characteristics that are always useful 
to remember. One is that they are always ultimately about 
politics. And because they are about politics, insurgencies are 
always different because there is a different political 
objective or a different political environment in each 
insurgency. So Vietnam is not like what we are fighting today. 
What we are fighting today is not like what we are going to 
fight next. And I will talk about that in a second.
    Insurgencies follow sort of a ``sine curve.'' They start 
with law-breaking and matters for police, the curve goes up 
until they reach such a level that military force is required, 
and then if a counterinsurgent is successful, the curve comes 
down again and eventually again becomes a matter for crime, for 
police. That is what we see in every insurgency, even though I 
have said they are all different, they all follow this curve. 
And the purpose of counterinsurgency is to drive the level of 
violence down to the point that the host government can deal 
with it as a matter of criminal law.
    And the second point I would like to make is the 
relationship of crime to conflict has changed. One of the big 
changes in the past 20 years or so has been the emergence of 
crime for a number of reasons as a political force in the 
world. The experts with whom I deal estimate that as much as a 
fifth of the world's GDP [Gross Domestic Product] is now from 
the black economy. When that happens, then illegal money, as in 
drug money, becomes a political force, akin to ideology, akin 
to Marxist philosophy in the prosecution of the crime.
    One way to look at the Taliban and its associated warlords 
supporters, for example, is these big smuggling operations. And 
this committee knows that our operations in Afghanistan the 
Drug Enforcement Administration has agents that go in with the 
Delta Force and the black operators because what they are 
dealing with is a hybrid of insurgency and crime. The 
insurgency will probably never be snuffed out until some handle 
is put on the money that flows into the Taliban.
    The same is true of the Colombian FARC [Revolutionary Armed 
Forces of Colombia], or virtually any insurgency in the world 
today can also be viewed through the eyes of the police as a 
transnational criminal organization, that is true of all 
insurgencies. And that is a major change since the day I 
studied Mao and chased through the jungles of Vietnam.
    In the 21st century, crime, terrorism, and insurgency are 
blending in new political and social combinations that call for 
new understandings of approaches to counterinsurgency. Although 
some still deny the reality, and I have been lectured by 
experts on this, one need look no further than the impact and 
the reach of the Mexican criminal cartels which are the 
prototype of the transnational criminal organization to see the 
face of modern irregular warfare, insurgency, and terrorism.
    One of the more ominous things that has happened in the 
very recent past has been the combination of the Iranian 
influence and Mexican drug cartels. You saw that in the Saudi 
ambassador plot, which needs to be taken very seriously because 
in my view, and this is a subject of some more work I am doing, 
in my view that represents a policy decision by the Government 
of Iran to make an active alliance for purposes of striking 
inside the United States with the drug cartels. Now the Qods 
force has been in Venezuela for a decade, and the Qods force 
and the Iranian Republican Guards Corps and the cartels and the 
FARC and that whole crowd, have always been very deeply 
involved in the drug trade.
    The fact now that the Qods force reached out to the Zetas 
to engineer or pay for a strike in the U.S. indicates policy 
change. We ought to be alert to that. There have been other 
indications we can talk about in testimony that they have 
already been striking inside the United States at a low level 
and has just not been detected yet, at least as far as I know 
in the unclassified sources.
    Finally, in the subject of resource allocation, we need to 
think carefully about how we do the whole-of-government 
approach. I personally am very impatient now with the 
overwording we are doing trying to describe what we see 
emerging as the new form of terrorism. When we use words like 
irregular warfare, counterinsurgency, asymmetric warfare, and 
all those other things, those words down the funding stream 
have meaning in the terms of stovepipes we put that go into the 
agencies that fight these people. And at the very bottom of the 
pipe with our young men and women out there in Central America, 
or Venezuela, or wherever they are, it is difficult for them to 
operate if their funding is so restricted they can only apply 
it in one direction.
    This is not a paid political announcement by any of those 
agencies, but I have seen it firsthand and it is a serious 
problem. As the sphere of warfare changes, the way we think 
about supporting our war against it has to change. And the most 
visible sign of that on the operational level are the 
stovepipes that we built around different definitions of a 
problem that is changing faster than we can redefine it.
    Sir, with that, I will conclude my remarks and wait for 
testimony.
    Mr. Thornberry. Thank you.
    [The prepared statement of Colonel Killebrew can be found 
in the Appendix on page 54.]
    Mr. Thornberry. Colonel Maxwell.

STATEMENT OF COL DAVID MAXWELL, USA (RET.), ASSOCIATE DIRECTOR, 
        SECURITY STUDIES PROGRAM, GEORGETOWN UNIVERSITY

    Colonel Maxwell. Chairman Thornberry, Ranking Member 
Langevin, and members of the subcommittee, thank you for the 
opportunity to appear before this distinguished panel. In my 
testimony, I would like to discuss three areas that have been 
the focus of my studies and my military experience, lessons 
from Operation Enduring Freedom-Philippines, the potential for 
irregular warfare following war or regime collapse in North 
Korea, and some recommendations for special operations forces 
operating in the future irregular environment.
    Let me begin with what I see as the future of conflict. I 
think we can put the nature of the threats that we will face 
into three categories: First there will be those existential 
threats to the United States or allies that will be 
characterized by state-on-state military conflict, conquest of 
territory, and the potential for large-scale death and 
destruction among the participants, military and civilian.
    The second type of conflict will be those that threaten the 
status quo and regional stability of friends, partners, and 
allies, with lawlessness, subversion, insurgency, and 
terrorism. However, the third category of threat is one that 
combines the potential for high-end conventional conflict that 
can only be conducted by states, or among states, along with a 
non-conventional conflict to include the potential for 
insurgency and terrorism as well as humanitarian crises. There 
is currently at least one threat to a U.S. ally that meets this 
description, and that is North Korea, and so I will touch on 
that briefly.
    Because of the nature of the Kim family regime in the 60-
plus year indoctrination of its population into what Australian 
scholar Adrian Buzo termed ``the guerilla mind-set of the 
guerilla dynasty.'' Whether there is war or regime collapse, 
the potential for insurgency, terrorism, and instability in the 
north could make Iraq and Afghanistan pale in comparison.
    Now let me return to the second category of threats, which 
I think is really the main focus here. Those are the threats 
that threaten the status quo and regional stability of friends, 
partners, and allies, but may not require the commitment of 
large-scale regular U.S. military forces, but a select and 
tailored force to be able to assist as appropriate in support 
of U.S. interests. We have seen these types of conflict in 
Colombia, the Philippines, Trans-Sahel, Horn of Africa, and 
Yemen as examples. These are conflicts where SOF [Special 
Operations Forces] can and has played a significant role.
    I would like to touch on something here and mention that 
SOF really brings two distinct capabilities to support both 
theater and national strategies. Surgical strike and special 
warfare, and the term ``special warfare'' being the traditional 
term, historical term for special operations.
    Now summarize these two capabilities, surgical strike is 
the execution of activities in a precise manner that employs 
special operations in hostile, denied, or politically sensitive 
territory, or environments to seize, destroy, capture, exploit, 
recover, or damage designated targets or influence adversaries 
and threats.
    While special warfare is the execution of activities that 
involve a combination lethal, and non-lethal actions, taken by 
a specially trained and educated force that has a deep 
understanding of cultures and foreign language, proficiency in 
small unit tactics, and the ability to build and fight 
alongside indigenous combat formations in a permissive, 
uncertain, or hostile environment.
    And together these two really illustrate the missions that 
are in Title 10, section 167 in the law for special operations. 
But those are the two distinct categories that describe the 
spectrum of special operations.
    Now, the United States possesses the finest special 
operations organization for surgical strike in the world in its 
national level joint special operations force. However, there 
is no complimentary national joint level task force capability 
for special warfare. I would recommend investing in such a 
national level special warfare joint force that would possess 
the capabilities to support the requirements of Chiefs of 
Mission and geographic combatant commanders to be able to 
advise and assist host nations with discrete capabilities and a 
small footprint.
    Second, for those contingencies that require capabilities 
beyond SOF, we should consider the establishment of a hybrid 
corps headquarters with both regular and SOF personnel to be 
able to prepare, train, and deploy enabling support or select 
combat capabilities when such situations require.
    Let me touch on Operation Enduring Freedom-Philippines 
because it offers some lessons for consideration when dealing 
with the second category of threats. First and foremost, U.S. 
operations there were shaped by assessments. These assessments 
occur before the plan is developed and these assessments are 
continually updated through the duration of the operation. 
Assessments conducted by special operations personnel are 
critical to providing information that can cause adjustment to 
the campaign plan as well as support balance and coherency 
among the ends, ways, and means of strategy.
    Now while SOF provided training, advice and assistance in 
the Philippines, they did not try to create a military in the 
U.S. image. Advice was tailored on understanding the Philippine 
military as well as culture. However, they did integrate some 
high-tech capabilities into Philippine operations, particularly 
intelligence capabilities.
    Finally, U.S. SOF was in a supporting role, never taking 
the lead, always protecting the legitimacy of Philippine 
sovereignty. This is a critical element in preventing the 
perception of the U.S. as an occupying power. I have attempted 
to look at the future of irregular warfare and, of course, only 
touched on it. The key to the future is having a force that is 
trained for certainty and educated for uncertainty.
    The three potential categories of threats should shape the 
force as well as the strategy. A new SOF organization as well 
as a hybrid corps construct should be considered for dealing 
with the second category of threats to provide assistance to 
friends, partners, and allies when they are threatened with 
lawlessness, subversion, insurgency, and terrorism. An 
overlooked threat is North Korea. It has the potential to be an 
extremely dangerous and complex threat and this requires that 
the ROK [Republic of Korea]-U.S. alliance prepare for that 
threat now.
    There are many lessons to be learned for ongoing operations 
that will have application in the future operating environment. 
I touched on the Philippines, but as I said, Colombia, Trans-
Sahel, Horn of Africa, Yemen, all provide lessons that should 
be studied. The uncertain future demands an agile force that 
can fight and win the nation's wars and yet operate in other 
environments that may it not require a large footprint and 
massive combat power.
    Finally, a successful support to U.S. national security 
objectives in the future will be characterized by efficient, 
effective, joint military and interagency operations, executing 
strategy with balance and coherency amongst ends ways and 
means. And I will close with that, sir.
    [The prepared statement of Colonel Maxwell can be found in 
the Appendix on page 63.]
    Mr. Thornberry. Thank you all for your summary and for your 
excellent written testimony. We can't quite match you all 
Colonel for Colonel, but we will give it our best shot. I will 
yield my first 5 minutes to the gentleman from Florida.
    Mr. West. Well, thank you, Mr. Chairman. There are two of 
them and only one of me. As I listen to the testimony here, it 
reminds me of the quote from George Santayana who said those 
who fail to learn from history are doomed to repeat it. We have 
Somali pirates, well, guess what, we used to have to contend 
with the Barbary pirates. You go back and you look at the old 
United States Marine Corps small wars manual, you think about 
what General Blackjack Pershing had to contend with in the 
Philippines. So I don't think there is anything new under the 
sun here.
    So the first question I have is at the strategic level, do 
you think that the United States of America really understands 
the nature of this 21st century battlefield that we are 
discussing right now? Are we failing at the strategic level, 
because having been at the tactical level, and being in 
Vietnam, you know we always won at the tactical level, but it 
was at the strategic level where we have problems.
    Colonel Killebrew. I will answer because I am oldest. He 
said Vietnam so I get to come in. I think the commands in the 
field understand it. U.S. SOUTHCOM [Southern Command], for 
example, is reconfiguring itself to handle the TCO 
[Transnational Criminal Organization] threat, the transnational 
crime threat. I think that the operators, certainly in the 
field know it. The man who would be sitting here who could give 
you the best testimony is the DEA [Drug Enforcement Agency] 
agent in Colombia who lives with this every day, who has the 
grand title of the Agent in Charge of the Andean Ridge. He is 
up to his neck.
    I am not sure in this town and in the deeper understandings 
of strategy we understand it. What is happening in Mexico a new 
kind of insurgency. As you know, the Secretary of State and 
Assistant Secretary of the Army got their hands slapped when 
they said that, and for political reasons I understand why. But 
the fact is that the insurgency that I studied for Vietnam is 
changing because it is blending with crime, and the information 
age is giving it capabilities it never had before. We might 
slightly disagree that we have seen this before. I am not sure 
that the U.S. Army at least ever had to deal with a hybrid 
crime-insurgency threat. That cuts across agencies to such a 
degree, I don't think we have quite taken that on yet.
    Dr. Jones. A couple of comments, this is a $64,000 
question, I think. I would say the picture is very mixed along 
these lines. If we look, for example, at the history of 
Afghanistan, it is in the news today because of some of the 
public opinion polls, I would say we spent 2002 to 2009, that 
is a period of 7 years with a bad strategy, a strategy that was 
focused primarily on building a central government in 
Afghanistan, neglecting to understand the tribal, sub-tribe 
clan, informal nature of the country. So I think strategically, 
we have made mistakes. We made mistakes in Iraq, in my view, 
for several years; we corrected them. In the Iraq case 
beginning around 2006, Afghanistan, we made some course 
corrections beginning 2009 and on to today. But I do think it 
does demonstrate that we--that our ability to understand and 
craft strategic decisions and policies has been mixed.
    I would also say I don't believe we have a strategic 
document on this subject. We have a field manual for 
counterinsurgency, we can argue about how good or bad it is, 
but we don't have one on various other aspects of this broader 
problem set. So I don't--I could not point to a strategic 
document which outlines this, even from the Department of 
Defense's perspective. That seems to me insufficient.
    Colonel Maxwell. Yes, sir. I think your question is spot 
on. Strategy is hard, and I think that is the hardest thing. I 
think, you know, and, of course, Sun Tzu said strategy can, of 
course, take care of bad tactics, but tactics without strategy 
is the noise before defeat. And I think that is where we really 
have to focus. And as Dr. Jones said, we have done well 
correcting ourselves. Strategy is not a silver bullet, there is 
not a Holy Grail, there is not going to be a single strategy 
that will work everywhere. It takes understanding, as Colonel 
Killebrew, I think, laid out some very--very important ideas 
about some of the threats that we will face. We have got to 
understand those, but then developing a strategy at the 
national level is hard. But I don't think we are ever going to 
see again an NSC [National Security Council]-68, a containment, 
a single strategic document as Dr. Jones alludes to, that is 
going give us that answer. It has to be continually worked. And 
we haven't done it well at first, but we usually--and we have 
done well over time learning the lessons and adapting, but I 
think that is what we really need to focus on is strategy.
    Colonel Killebrew. I wonder if I could make one 
interjection?
    Mr. West. Sure.
    Colonel Killebrew. The most fundamental error we have made 
in the three insurgencies that my career has covered is that we 
go in thinking that we are going to be the counterinsurgency 
force. Dave Maxwell will drill me on this over and over that we 
are not the primary counterinsurgency force. The primary 
counterinsurgency force is the host country. We always go in 
with conventional forces, we always fight Whack-a-Mole for a 
few years until public patience is exhausted, and then we are 
driven to the right strategy, because resources start becoming 
scarce. So if I could make one comment about strategy, it is 
that we start from a strategically bad place with our 
understanding about the problem we are facing.
    Mr. West. Thank you gentlemen, thank you, Mr. Chairman, I 
yield back.
    Mr. Thornberry. Great question, great way to start. Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, thank you again to 
the panel for your testimony. Let me start off with a broad 
question, in terms of irregular warfare capabilities, which 
will become more salient to meet future challenges? And are 
these capabilities, particularly cybersecurity properly 
resourced, both fiscally and in terms of manpower and training? 
Let's start with the panel and go right down.
    Dr. Jones. Sir, if I understand your question, you were 
focused specifically on cyber capabilities?
    Mr. Langevin. No, I want to know what irregular warfare 
capabilities will become more salient to meet future 
challenges, what will we need to be focused on in terms of the 
enhanced capabilities and get particularly proficient at? I 
think that goes to the Colonel's question in his last comment 
about getting really good at using our resources properly.
    Dr. Jones. Sir, my own personal view based at least partly 
on experience up through 2011 in the field is that we face 
enemies, whether they are states or nonstate actors that are 
adaptive, that have the ability to use and leverage a range of 
communications, technological abilities to push out propaganda, 
to recruit, to use for financing, and that means when it comes 
to capabilities, developing a range of capabilities that allow 
us to move quickly. From the organizational structure, there is 
a broad discussion about giving U.S. Special Operations Command 
more command over theater special operations forces.
    I think organizationally, we have some constraints on 
moving quickly across different theaters. I think also on 
capabilities, we do need to invest more on the technological 
side in also being able to push out information in ways on the 
strategic communications side that takes advantage of the 
proliferation of the social media. And when one looks at what 
the Taliban are doing, for example, in Afghanistan they have 
began to take advantage and disseminate propaganda from mobile 
phones. It is becoming increasingly effective.
    We have got to be able to respond to these activities 
through our own capabilities, disseminating through SMS 
networks, Twitter sites, Facebook, pushback against 
individuals, he is now dead, like Anwar al-Awlaki. Part of the 
capability is, in my view, where we tend to be lacking is not 
just on our technological side, but is also in how we are--who 
is the lead agency for this? I am not even sure we could 
identify a lead agency along these lines. I would identify a 
range of capabilities.
    Let me just come back to--the point, I think, is that the 
speed with which irregular warfare is having, the territory in 
which it is being involved in, and the ability to reach out to 
multiple diaspora populations, states and nonstate actors, 
charities, is incredible, and requires an ability to be able to 
move fast. So we could get specific on capabilities, but I 
think we have got to be able to respond quickly because I do 
think, take the incidents in Afghanistan over the last several 
weeks, we were slow in responding in several of those cases.
    Mr. Langevin. Thank you. Colonel.
    Colonel Killebrew. Sir, I associate with everything my 
colleague just said. I would just like to expand it a little 
bit. From the point of view of this old infantryman, we are in 
the middle right now of a shift in political affairs in the 
world that is, perhaps, best understood with the speed of the 
telecommunications revolution, but also in migration patterns 
and the crime that I have already addressed and weapons 
proliferation, things are happening out there that don't fit 
the old traditional bounds.
    I apologize in my testimony for using the term Westphalian. 
But the fact is, the old boundaries, like national border 
matter, don't matter anymore to our opponents. So with that, I 
would just say cyber is certainly a capability we have got to 
get better at. It is an essential part of fighting in the new 
environment that is developing. I would say Treasury has got to 
get much, much better at cutting out funding streams. If, as I 
believe, crime is becoming a major component of insurgency and 
counterinsurgency, the easiest way, and probably the only way 
to hurt those people decisively is to go after their funding 
streams. But that capability inside the U.S. Government is not 
as robust as it should be.
    Justice has a major role to play in the future world as it 
is unwilling. One of the most effective things we ever did in 
Colombia was to turn the DEA loose with its Trusted Officer 
Program to reform the Colombian police, which has made a huge 
effort in that country, which they are now trying to propagate 
the rest of Central America.
    State Department, everybody always makes a plug for the 
State Department, I do, too. If I understand my sources 
correctly, they cannot hire FSOs [Foreign Service Officers] 
now, even at the replacement rate, but State particularly with 
this new crop of State Department people coming along who had 
been bloodied in Afghanistan and Iraq are now going to start 
moving into senior positions. And the State Department, there 
is a chance now to change the State Department and make it 
much, much more proactive. So those agencies have got to 
happen.
    Within DOD [Department of Defense], the agency I don't know 
the most about, we have got to get, and this will take the 
cooperation of the Congress, much, much better at quickly 
recognizing states that are threatened, forming competent 
advisory efforts, whether they are from special forces or 
whatever they come from, getting FMS [Foreign Military Sales] 
reformed, and getting that stuff to the people who are going 
fight our wars for us in the future.
    Colonel Maxwell. Sir, I would focus on capabilities and say 
that rather than material and technology, irregular warfare 
capabilities rest in people. And I think that that is where we 
really have to invest, especially in this time of fiscal 
constraint. It is our people that have to be able to solve 
complex, political-military problems. And I think we have seen 
many soldiers, sailors, airmen, marines, coast guardsmen, DEA, 
our State Department partners around the world doing many great 
things to solve complex political-military problems. That is 
something that we can't afford to lose.
    As Dr. Jones said, 1975 we were saying never again, 
counterinsurgency and the like, and we lost a lot of our 
doctrine. But I would focus our capabilities on developing our 
people and taking advantage of the hard-won experiences that 
our military personnel and Government agency personnel have 
learned over the last 10 years.
    In terms of cyber, let me just--we have to continue to 
train as we have to maintain our combat capabilities from 
shoot, move, and communicate to complex operations and 
irregular warfare. I think our focus has to be also on 
equipment that is dual-use. That is--we are not going have the 
luxury to specialize in major combat operations and irregular 
warfare. So we have to search for equipment that will be able 
to operate in multiple environments, and I think we are on that 
path.
    Cyber, that is something that is really tough for me. I 
agree wholeheartedly that it is a vulnerability, a strength and 
vulnerability, a strength that has to be protected. I am 
reminded of an anecdote that I recall from back in the 1990s, 
hearing a lecture from the NSA [National Security Agency], a 
senior official, who said that it was very difficult to recruit 
people to defend our networks. Everybody wanted to be a hacker, 
everybody wanted to be able to penetrate other networks, but 
nobody wanted to defend, defend our network because it just 
wasn't a very glamorous job. And of course, that--it is just 
like terrorism, you can be successful defending a thousand 
times, but one penetration of the network and you have failed. 
Whereas the hacker can fail a thousand times and one 
penetration, he is a success. And so I always recall that, is 
that defense of our network is very, very hard, but we have got 
to put a lot of emphasis in that. It is not an area that I am 
very familiar with except I depend on it, I think we all depend 
on it, and we are going to depend it more in the future.
    Mr. Langevin. So true, thank you gentlemen. I have more 
questions but maybe the second round. Thank you, Mr. Chairman, 
I yield back.
    Mr. Thornberry. Thank you, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. Gentlemen, thanks for 
being here. Dr. Jones, I appreciate that phrase, he's now dead, 
I would like to see that used more often. Bad CPA [Certified 
Public Accountant] humor.
    A couple anecdotes, and then to the broader question. First 
started going to Afghanistan 2005, and it was startling to see 
how siloed the fight was between going after Al Qaeda, the 
Taliban, and the drug war; DEA had a lane, FBI [Federal Bureau 
of Investigation] had a lane, and the Department of Defense had 
a lane. And they didn't cross each other and they didn't go 
after each other. And that has gotten fixed over the past 7 
years.
    I was also in Jalalabad one afternoon on a Sunday afternoon 
with a Provincial Reconstruction Team and we were basically 
having a Chamber of Commerce meeting. This was an effort to try 
to figure out how to take advantage of the agricultural system 
there in that province. Value added, do some canning or 
processing and then ship it to Kuwait and all those kinds of 
things, and have electricity. A flat-out Chamber of Commerce 
deal. And the guys running this deal was a team from the 101st 
Airborne who the day before, had been in an 8-hour run-and-gun 
fight with a bunch of bad guys. And so they took those hats 
off, and Sunday afternoon, just sitting there trying to figure 
out how we solve the economic issues. And they don't come here 
for a second knowing how to do that, but they were full-out 
trying to make it happen.
    And you look at--Colonel Maxwell, you may have alluded to 
this a little bit--irregular warfare, we don't just take a 
military team to go do that and fix all of that. Struggles with 
folks at the State Department who won't deploy, or we can't 
deploy them because they don't volunteer in the same way that 
our folks in uniform deploy. So how do we put together the 
capabilities under some umbrella that allows us to go at it at 
the right time as opposed to a stair-step approach where we go 
in there and get security squared away, and then that bright 
line is done, and then you step in with the State Department 
capabilities to help build governances, those kinds of things.
    It is not linear like that, or should it be, so how do we 
put together--and none of you really talked about, what kind of 
blended agency needs to be there so that you have one person 
making the decision who has the authority across that spectrum 
to deploy people, deploy assets and that kind of stuff. And can 
you do that or is there value in doing that?
    Colonel Killebrew. I will start, sir. There is a wonderful 
story from World War I about an old British NCO [Non-
Commissioned Officer] on the day the guns stopped firing. He 
looked out over no man's land and he said, ``Thank God all this 
is over and we can go back to real soldiering again.''
    When you leave agencies alone in peacetime, they revert to 
doing what agencies do in peacetime. That guy from the 101st--I 
am a proud 101st guy--that guy from the 101st, you know, was 
trained to fight wars, and he probably enjoyed the firefight 
the day before more than he did the Chamber of Commerce 
meeting, but he was doing the best he could, you know, doing 
the best he could. Probably not the right thing to do with a 
soldier. The fact is that military forces of any country are 
probably the wrong outfit to use when you are trying to have 
Chambers of Commerce meetings, or get the economy going, and 
that kind of thing. I had a friend on a PRT [Provincial 
Reconstruction Team] say, you know, every time we do something 
over there, my PRT does something, the people in the village 
are saying how come the government's not doing this? And we are 
stealing the air from the government rep who should be doing 
it.
    We have learned an enormous amount the hard way over the 
past 10 years in both Iraq and Afghanistan. At the operational 
level, we have learned to do a multi-department organization. 
If you want to see an organization that goes well, go to JIATF 
[Joint Interagency Task Force]-South, guy from SOUTHCOM down in 
Key West, where you will see representatives from the entire 
U.S. Government working together on a common problem. Your 
question is, how do we preserve that? And my answer is, first, 
we take advantage of the new blood that has come in in the past 
10 years that understands that.
    We develop interdepartmental schools; we develop 
interdepartmental exercises; we go for the JIATF kind of 
organization wherever we can find it. And there are more of 
those around than we realize, where commanders have thrown 
together branches of government. We recognize them and resource 
them. And we make the path to success in the various agencies 
depend on their willingness and capability to work with other 
agencies.
    Now, that is easy to say because I am a military guy. 
Military people understand how to do that. State Department, if 
they put together a joint exercise, has to pull somebody out of 
a critical slot and put them in the joint exercise. And that 
seat goes unfilled because they don't have the staffing slack 
to send somebody to school, or to do a joint exercise. So there 
are methods that approach what you correctly pointed out is 
something we have to do. They have long tendrils that hang down 
underneath that we have to address. But I think the overall 
response is yes, we have to do it; two, we have a force in the 
field and all the agencies that understand that; and three, the 
question will become when this is--if it ever is over, as we 
draw down in Afghanistan, how we keep people from going back to 
real soldiering again.
    Dr. Jones. I will be brief because I see we are over time. 
I want to give a very quick example to your question. The week 
before last, I was down in Florida with Special Operations, 
U.S. Agency for International Development, and State 
Department, and conventional forces leaving for Afghanistan. So 
I spent a chunk of time talking to people who were headed over 
there and some that had come back temporarily for this meeting. 
There were about 500 total people there. And one very serious 
issue along these lines--well, there were several that came up; 
I will just highlight one--and that is with all the effort the 
United States has spent, in this particular case in trying to 
get out to the villages, which, in my view, is a critical part 
now of where we are at, it requires an ability to understand 
the governance component, that is, helping villagers and locals 
improve their formal and informal governance, the development 
component so that we can improve the economic well-being of 
locals, and the security. That requires multiple agencies.
    The problem we have on the ground is not an unwillingness 
of civilians to go into these areas. There are plenty that are 
willing. It is not a capability. We have plenty that are 
capable. Part of this is security offices don't let them go, 
even with trained Special Operations Forces who are living in 
and around these villages. This is the practical problem we 
face on bringing them together where it matters most. It is not 
at the higher levels, per se, that we are running into the 
problems. It is at the security--well, I mean it is in some 
sense. But it is, we restrict ourselves for security practices. 
And it has very serious complications. I just highlight that as 
one of several areas that has impeded our ability to do exactly 
what you are talking about.
    Colonel Maxwell. Sir, I think as you correctly pointed out, 
our people on the ground, if left alone, will figure it out. 
And across the military, State, all of our organizations, they 
sort it out on the ground. To go back to Congressman West's 
question on strategy, we really need to have a process that 
integrates at the national level. In my written statement, I 
talked about an example that I experienced back in the 1990s, 
Presidential Decision Directive-56 in May of 1997, which was 
for the management of complex contingency operations, based on 
a lot of lessons learned from Bosnia, Kosovo--or prior to 
Kosovo, but Somalia, Haiti, and the like. But what that 
provided here inside the Beltway was a structure for the 
interagency to come together and to assess the mission, assess 
the problems, understand the problems, and develop strategies 
to be able to solve those problems. And I think if we develop, 
at the national level, a process--and I know we have our 
national security processes in the executive at the National 
Security Council and the like, but if we could develop a 
disciplined process along the line of the former PDD-56 
[Presidential Decision Directive-56], we might be able to solve 
some of the problems that Dr. Jones is alluding to.
    As an example, the agencies from here could give the 
strategic guidance to make sure that we don't have those 
restrictions for security and the like. So I think on the 
ground, we eventually sort it out. But we have got to have a 
process at the strategic level here that will help us focus on 
these complex operations and to really orchestrate all the 
instruments of national power and these agencies to be able to 
properly resource with proper authorities and the guidance for 
their organizations.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Thornberry. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And I would really 
like to follow up with this discussion. Thank you all very much 
for being here. Because I think we have talked about whole of 
government, I understand it can be trite, and I agree with you 
on that. But there are just a few things. And maybe I am going 
to take you out of your lane for a second, but something that 
strikes me. I mean, one of the things that we know is that we 
have been a military at war and not a nation at war. Would you 
agree with that statement?
    Colonel Killebrew. Sure.
    Mrs. Davis. How does that affect what we do? You mentioned, 
Colonel, that above all, we should be a unified and committed 
nation. Where does that fit in?
    Colonel Killebrew. Well, Madam, you are running a grave 
risk. I have a whole sermon I give on this. But I will try to 
restrain myself.
    Mrs. Davis. Okay.
    Colonel Killebrew. The social changes and the political 
changes are happening in the world right now, in my view, and I 
am not a Ph.D. social scientist, but having studied it, I 
believe are undermining in many cases the concept of 
nationhood. One country, as I said in my testimony, that is 
going back at that is Colombia. And you have to look at them, 
get away from the help we have given them, and look at how they 
are deliberately trying to foster the concept under law of 
Colombian nationhood to understand the really depth of what 
they are doing.
    In this country, we have always taken that for granted. And 
I still take it for granted. We developed a volunteer armed 
force in which--and by the way, I came in during the draft. So 
I have seen both. I don't believe a draft would ever be 
practical again in this country. I think we have a volunteer 
armed force. I have to tell you, I am very impatient with the 
fact that no national leader has ever said, since the volunteer 
force came in, that it would be a good thing for someone's son 
and daughter to join the Armed Forces. Never. Not even after 9/
11.
    The concept of nationhood that we have to engender are the 
things that matter to us under the Constitution. And I don't 
believe it is furthered by the kind of red-blue split we see 
right now in the country. I think as you look 10 to 20 years in 
the future, with the impact of the technology and the social 
change going on in the rest of the world, I think this runs the 
risk of undermining our common concept of what we are as a 
nation. And I think that is something we have to take on. 
National leadership, persons as yourself, people like me who 
write, we have to come to understand there is some core idea 
about what being an American means, that may include serving in 
the Armed Forces or paying your country back through some kind 
of service, but larger than that, being willing to accept the 
concept that a lot of people make up this country, and 
everybody is an American. That is a kind of grand strategic 
view, but it has occupied my thought for quite a while now.
    Mrs. Davis. Thank you. Did you want to comment on that, 
too?
    Dr. Jones. I do. Very briefly, I think your question are we 
a nation at war? If you look at the last decade, decade and a 
half, we have been at times. We were a nation at war after 
September 11th, because there was a threat that brought us 
together as a nation that there was a mutual feeling that we 
had to defend the borders. I think there was--we were a nation 
at war in May of last year during and after the bin Laden raid.
    I think the challenge we find ourselves in along these 
lines is in many of the areas where we face irregular warfare 
challenges, we are talking about countries like Syria now, 
countries like Libya, where we have, and this is just a subset 
of them, large Muslim populations. I think we have found that 
adding and deploying large numbers of conventional forces to 
these kinds of theaters is not only, in some cases, 
counterproductive, but certainly doesn't provide a lot of 
domestic support.
    We see that on the Afghan front today. I do think one of 
the things that this suggests, as we move forward, is, and this 
goes back to comments that both of the panelists have made, is 
does it make sense on the irregular warfare threat to think of 
this really as focusing predominantly on the indirect side? 
Smaller numbers, competent U.S. Special Operations and 
intelligence forces dealing more systematically with these 
kinds of threats rather than deploying hundreds of--over 
100,000 forces. Because I don't think, unless we are attacked, 
like we were on 9/11, we will be a nation at war from a 
domestic standpoint the way we were on 9/11. I think those 
kinds of incidents are extremely rare, but the threat is real.
    Colonel Maxwell. Madam, I think, really, to echo both my 
colleagues' comments, we have to look at the nature of the 
conflict that we are engaged in. And I think Dr. Jones is 
right, after 9/11, we were a nation at war, and we have been at 
times. But we also have to ask ourselves should we be a nation 
at war? And I think as I look at the categories that I have 
laid out, the first category, existential threat to U.S. or our 
allies, we have to be a nation at war if we are faced with 
that.
    I think at the second category, those threats to regional 
stability and status quo, our friends, partners, and allies, 
subversion, terrorism, insurgency, lawlessness and the like, 
that may not cause us to be a nation at war. And as Dr. Jones 
says, it might require a smaller footprint, a discrete force 
that may not require the Nation to be focused. The third, a 
more hybrid threat, I think, would require us to be a nation at 
war, because the scale and scope of that complex threat, we 
would need to be a nation at war. So I think it is really a 
question of the type of threats that we face, and then the 
strategies that we employ to deal with those threats. But I 
think--the other aspect I think you are getting at is--and I 
think we all know this--our Nation supports our military. You 
know, there is support for it. But the question is, you know, 
as always, who serves? And there are a lot of people that are 
serving, and have continued to serve, and they feel that burden 
on their shoulders, and they are tired.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. Thank all of 
you. We certainly appreciate all that you do for our families 
and for future generations. You are kind of the unappreciated 
front line of freedom, but we appreciate you. Colonel Maxwell, 
if it is all right, I will start with you. How does manmade 
electromagnetic pulse or EMP [electromagnetic pulse] factor 
into your assessment of, you know, on the one end of the 
spectrum, possibly existential threats to our country, or on 
the other end, you know, just potentially very significant 
threats that an enemy waging irregular warfare might use 
against the United States? And what must the DOD do before we 
are prepared to react to such a threat and mitigate its 
effects?
    Colonel Maxwell. Sir, that is a very complex question. EMP, 
I think, is, from my limited understanding, is very dangerous 
to us. I think many of our systems are vulnerable to that type 
of threat. And as we have already talked about the importance 
of cyber, I think our cyber systems, you know, while some of 
our individual systems may be hardened, you know, the entire 
network may not. So I think we could be vulnerable to that.
    You know, I think that if someone was to be able to 
detonate a device that would have EMP here in the United States 
or somewhere where we are operating, it could probably have 
devastating effects, even if not directly on our military 
systems, because I think we are very--you know, we are so 
interconnected, and the entire global network is not hardened. 
And so I think there are areas that are vulnerable. And we 
probably would be severely affected by an EMP strike in any 
kind of operation. I don't know how to defend against it other 
than to be able to harden our systems. But again, the nature of 
the global information grid is something that, you know, that I 
don't think can be totally protected.
    Therefore, we, Department of Defense, U.S. Government, we 
will have to learn to work through if we lose access to the 
global information system. And that is something that I think, 
you know, frankly we have become so dependent on it, may be a 
real challenge for us. And I think that is a strategic 
vulnerability that we do have to consider.
    Mr. Franks. I hadn't planned to, but I might expand on that 
a little bit. You know, we hardened our nuclear triad to the 
tune of tens of billions of dollars. And most nuclear scenarios 
are at least precipitated by an EMP laydown. And if this isn't 
the threat that some of the reports that we have seen in the 
last half-dozen years say it is, then we are spending an awful 
lot of money we don't need to spend. And my thought is, you 
know, everything I can see is that it is a very significant 
threat. It potentially is one of the most significant short-
term threats that we face. And if that is the case, I am just 
wondering--and I am just, you know, this is most respectful, 
but I am just wondering why DOD doesn't seem to be as obsessed 
with it as some of us are, especially in terms of our grid 
vulnerability since, you know, DOD relies on the civilian grid 
for about 99 percent of its electricity. Maybe if anybody wants 
to take a shot at that question.
    Dr. Jones. Sir, I am not an expert on EMP----
    Mr. Franks. Nobody is, it seems like.
    Dr. Jones. Right. What I will say, though, I would say most 
of the threats we face, both here and overseas, have tended to 
be either conventional, and what I mean by that is 
transportation-type targets, such as the Al Qaeda-type and 
Hezbollah-type threats. Iran's proxy efforts have been fairly 
simple, straightforward types of attacks, not these 
sophisticated. There have been efforts we have seen for 
nonstate actors and state actors to look at chemical, 
biological, and nuclear weapons programs.
    I have not seen, and even when I served in the Government, 
a lot of evidence that there was EMP being prepared directed at 
the U.S. homeland.
    So again, I may not be the best expert along these lines, 
but I think one would have to systematically analyze the kinds 
of threats and attacks we would like to see and we are seeing 
both state and nonstate actors prepare for, and then put EMP in 
that context.
    Mr. Franks. Let me ask the Colonel here to expand on that. 
But I will just say this much to you, Iran thinks that it is a 
viable option, because they have certainly done some things 
that I think are fairly discomforting. And I hope that is on 
your radar. And Colonel, go ahead, please.
    Colonel Killebrew. Sir, I just add that the Chinese 
military doctrine has talked for years about the use of EMP. 
And they have capabilities we couldn't discuss here. I am not 
aware of an Iranian capability, but they borrow an awful lot of 
their doctrine from the Chinese.
    Mr. Franks. This is the plan, not a capability.
    Colonel Killebrew. So it should never be discounted. EMP 
can be both, as you know, a strategic and a tactical problem. 
If it is a tactical--let's hypothetically say if someone used 
it on our fleets in the Pacific, it would probably be a 
tactical radius kind of thing. And most, in fact, all the 
systems aboard ship I know are hardened against EMP, against a 
certain degree of EMP. A strategic EMP on the United States 
would have to be accompanied by other kinds of attacks, as in 
the Cold War, when it was going to be part of the nuclear 
exchange.
    The military systems would probably be okay. I mean, things 
would fail, but guys would fix that. The systems that would go 
down would be the civilian systems. And as far as I know, and I 
don't--I know a little, but not a lot--as far as I know, 
civilian power grids have a very low tolerance against the kind 
of EMP-directed weapon you are talking about.
    Mr. Franks. That is an understatement, Mr. Chairman. Thank 
you.
    Mr. Thornberry. Mr. Andrews.
    Mr. Andrews. Thank you very much, gentlemen, for your 
testimony, Mr. Chairman, for the hearing. A lot of Americans 
say they remember, obviously, September 11th, 2001. I remember 
September 12th, 2001. I woke up, after barely sleeping at all 
the night before, and wondered how, as someone who had spent 10 
years in the Armed Services Committee, I had not done enough to 
think about the kind of attack that was successful against our 
country that day. I had sat through hundreds of hearings and 
briefings, and read reams of material. And if you would have 
said to me on September 10th that 19 people with box cutters 
and airline tickets are going to be able to kill 3,000 
Americans, I would have been very dubious about that prospect.
    And I think that the sin that I committed prior to 
September 11th was the sin of hubris. I thought that we were so 
powerful and so mighty and so good at what we did, and we were 
all those things, that we really were invulnerable to that sort 
of thing. Help correct my hubris at this time. What should I be 
worrying about, within the bounds of a public discussion of 
this, obviously? What should we be worrying about that we are 
not? You know, we have these discussions, we are all looking at 
cyber, and that is very, very important. We certainly look at 
chemical and biological warfare and nuclear IEDs [Improvised 
Explosive Devices], and we worry about all those things. What 
would you suggest as an area where we are vulnerable that you 
think people in our position are not paying enough attention 
to?
    Colonel Killebrew. I get pushed out on the ice floe again.
    Mr. Andrews. Again, within the bounds of this public venue.
    Colonel Killebrew. Mr. Andrews, I will tell you, sir, that 
a lot of us were sleepless on that night. And in my career in 
public service and studying defense issues, I made two great 
mistakes: We failed to see the collapse of the Soviet Union and 
the ramifications, we failed to see the terrorism threat. I was 
on the Hart-Rudman Commission about global threats.
    Mr. Andrews. Yeah.
    Colonel Killebrew. And no matter what the retrospective 
view is, I will tell you we had it figured out. It was China 
and a resurgent Russia. Terrorism didn't even hardly come up on 
the scope, despite the people who came in and tried to convince 
us it was serious. So what is the next big thing? That has been 
my preoccupation since then. And the best advice I could offer 
is, we in the defense business, and you in the national 
leadership business, have got to learn to see the world the way 
it really is, and not through the prism that we want to see it 
through. That led me to the crime studies. Because the world 
outside Washington has changed dramatically and is changing 
dramatically. We can't predict the future.
    Mr. Andrews. Right.
    Colonel Killebrew. But what we can do is see things as they 
are, and not the way we want to see them, and then try to build 
defenses against that. And that is the best I can do, sir.
    Mr. Andrews. Gentlemen?
    Dr. Jones. Sir, I think there are several issues. I will 
highlight two of them. One of them, and I keep hearing it, this 
mantra over the last several months with the death of Osama bin 
Laden, that the global jihadist movement is on the verge of 
strategic defeat.
    Mr. Andrews. I wish that were true.
    Dr. Jones. I think that represents extraordinary hubris. I 
think as we look around, what we thought was a benign effort 
that resulted from the Arab Spring in encouraging 
democratization across the Arab world, has, in many countries, 
contributed to instability, the collapse of regimes. And as I 
look across North Africa, the Middle East, South Asia, I see 
weakening regimes in some places and a strong push of this 
movement back in. I think that is one area where we would be 
very--we would be gravely mistaken to be hubristic about. The 
other thing is hubris that everybody likes us. I think our 
strategic----
    Mr. Andrews. We in Congress know that is not true. Oh, you 
mean the country. I see. Okay.
    Dr. Jones. I think our strategic communications on 
irregular warfare has been, how shall I put it, deeply lacking. 
And our ability to project our image overseas, or images that 
we would like, have been deeply troubling. And I think we fool 
ourselves into arguing that we have a competent strategy across 
agencies and that we are able to effectively do that overseas.
    So those two areas, that the global jihadist movement is 
dead, and that our ability to proliferate our image overseas 
and that we are pretty good at it I think would be our--I think 
would be--would be deeply--we would be deeply mistaken.
    Mr. Andrews. Thank you, gentlemen. Thank you, Mr. Chairman.
    Mr. Thornberry. Go ahead, Colonel.
    Colonel Maxwell. Sir, I don't have a direct answer. I wish 
I could answer your question directly. I apologize for the 
cliche, but you know, the failure of 9/11 was the failure of 
imagination. And I am reminded of the anecdote, you know, 1995 
when the terrorists were policed up in Manila in the 
Philippines and Operation Bojinka was compromised. And you 
know, the focus was on assassination of the President, the 
Pope, hijacking airlines, blowing them up in the sky. But 
within that computer that was seized was also a plan to fly 
airplanes into buildings.
    And the information was there. It wasn't a developed plan, 
but it was there. And none of us recognized that as a 
possibility. I mention that because that was 1995, and 6 years 
later that happened. And I think one of the things that we have 
to ensure that we don't have a failure of imagination, is we 
also understand our adversaries and their timelines are much 
different than ours. I agree with everything that Colonel 
Killebrew and Dr. Jones have said. And in fact, I agree that 
the global jihad is not on its last legs. And I think that what 
is happening now, what they are planning now may not manifest 
itself for some years down the road.
    And so we cannot have that failure of imagination in the 
future. And we have got to understand that our timelines are a 
lot different. We focus on threats now. They are developing 
threats for the future. And we have got to be prepared for 
that.
    Mr. Andrews. Thank you.
    Mr. Thornberry. Thank you. I guess I kind of want to go 
back to the beginning for just a second. And I am kind of 
mentally working my way briefly around the world, starting in 
Mexico, of course, where you mentioned we have the huge 
portions of the country run by criminal drug gangs, and 
indications of foreign influence to work with or take advantage 
of that situation. We go across the water, for example, Mali, 
just had a coup. Weak government, but in a neighborhood where 
there may be a lot more weapons floating around right now, and 
you have got some separatists in part of the country that are 
trying to take advantage of the situation.
    You have got the mess that is Somalia; you have got Yemen, 
a situation that has deteriorated since the President has left, 
and you have got areas of the country that press reports 
indicate the Al Qaeda-affiliated groups are rather controlling. 
Of course, you have got Iraq, Afghanistan, go around 
Philippines and Indonesia, where you have had some kind of 
either terrorist, separatist-type groups, which we have had 
great success at. But my point is as I am thinking around the 
world, very different situations. And as you all have alluded 
to, we cannot predict the future, but we have to be prepared 
for very different situations. And part of our challenge on 
this side of the table is, what can we do to see that either 
the programs, authorities, institutions of Government are 
prepared to deal with very different situations in a very 
uncertain future.
    And as you all talk, you know, each of you kind of has a 
little different expertise in a different region of the world 
in addition to your background and expertise, I think that is a 
big challenge for us. And I would just offer as a beginning for 
my questions suggestions that you all have for what we can do 
to try to help make sure that we are prepared for very 
different circumstances that are going to arise in the future 
in a variety of places around the world, and yet we have 
important interests there that are worth becoming involved in 
some degree.
    Colonel Killebrew. I am not going first this time.
    Colonel Maxwell. Yes, sir, that is the $64,000 question.
    Mr. Thornberry. We have already had one of those. Now we 
are up to $100,000.
    Colonel Maxwell. $128,000, I guess, yes, sir. I would, as a 
private citizen now, no longer affiliated with the Department 
of Defense, but I do feel strongly, as I mentioned in my 
testimony, the number one investment that we have to make for 
the future is in people and education. I think we have got to 
make sure that we are educating all of our leaders to be able 
to understand the environment and to be able to see those 
threats as they emerge and be able to make the proper 
recommendations for campaign plans and strategies and the like.
    Mr. Thornberry. I am sorry, Colonel, but let me just follow 
up. Are we doing that now? Do you think we are educating 
properly, for example, our military, to deal with this wide 
variety, from narco-criminal situations, to failed states, to 
all the rest?
    Colonel Maxwell. I think that our military is, because of 
the nature of the last 10 years of war, we have not been able 
to focus as much on education, professional military education, 
as we should because of the nature of the conflicts. I don't 
have the data. I would recommend asking the Army as an example. 
But I think there is quite a backlog for intermediate level 
education because those officers have been serving.
    And so I think that as we draw down from Afghanistan, you 
know, obviously withdrawing from Iraq, that I think now is the 
time to refocus professional military education to be able to 
do those things. I think that is where an investment, a long-
term investment is needed, especially with a professional 
military force, all-volunteer force that is going to be a--that 
is a career force. We have got to invest in education. That 
would be my number one recommendation.
    Mr. Thornberry. Okay. Yes, sir.
    Dr. Jones. I think there are a few things worth taking a 
hard look at. One is education not on the military force side, 
but the American population. I do not think there is an 
appreciation for the types of threats that face the American 
homeland in all the areas you outlined. In many areas, I do not 
think the Government writ large has explained to the American 
population why we are there, what the threats we face are. And 
so in that sense, I do think there is also an additional 
element to the education on the American population. I think, 
and I will go back to this earlier, Congress has various ways 
of, through NDAA [National Defense Authorization Act] and other 
things, of conducting assessments. I do think there is a strong 
need to look at the interagency aspects of irregular warfare. I 
do not believe we are appropriately, strategically, 
operationally, and tactically prepared for--and flexible enough 
to respond to a range of these threats across the interagency. 
I do think there is a grave need to look very hard at what we 
have done, look at what the threats are in the future, and make 
a range of recommendations on how to improve what multiple U.S. 
agencies do. And that includes not just the civilian and 
fighting components per se, but that also includes the 
information realm. I mean, who controls that? Who is the lead 
agency for information on irregular warfare and that whole 
information operations campaign?
    And lastly, I would just say along these lines, I do think 
there is a very strong need, based on the kinds of discussions 
we have had already, to ensure that we have a very competent, 
well-trained Special Operations community. That a lot of what 
we have talked about, whether it is the drug trade, when it 
comes to military forces, my own personal view, we are talking 
about a much lighter footprint. This is not, with the exception 
of possibly of the Korean case and a small number of others, we 
are talking about small numbers of American soldiers on the 
military front. I mean that is really our SOF world. And that 
means that as we consider ways to cut our defense budget, I 
think I would be very cautious in the future about cutting too 
much of those budgets. Because I think this is the kind of 
future we face.
    Mr. Thornberry. Let me ask just one drill down question. Do 
you agree with Colonel Maxwell that we need a JSOC [Joint 
Special Operations Command] equivalent on the special warfare 
side and within Special Operations Command?
    Dr. Jones. I think we need--I am not sure what that means. 
I do think we need an equivalent at least that would pull 
together our training end, the training and equipping end. JSOC 
has done a whole range of things well, and improved their 
ability to move quickly across the globe. I don't think the 
Special Operations community has done this as well on the sort 
of Special Forces training and equipment side. Yeah, I think 
there is--I am not quite sure if that is where he is going, but 
I do think there is a strong rationale.
    Mr. Thornberry. A number of people have commented on the 
suggestion, so I was interested. Then Colonel Killebrew, you 
mentioned in your testimony this is about politics, and no two 
were ever the same, no two situations were ever the same. And 
that is part of where my question goes. We have got a lot of 
different situations. And it gets really back to how we prepare 
for no two situations being the same.
    Colonel Killebrew. Mr. Chairman, in the services we have a 
term we use called ``centralized authority but decentralized 
execution.'' I think one of the things we have to shed 
ourselves of in the United States is the idea that we can 
micromanage the world. We can't. We have tried that. It doesn't 
work.
    To preface my comments, sir, that will support this, 
remember my discussion about the curve. It starts in a police 
action, winds up in military affairs, and then if we are 
successful we help a country drive it down to a police action 
again. I think we have to start with a policy of the United 
States Government to support the survival of legitimate 
governments around the world, and to integrate U.S. 
capabilities to help those governments operate under their 
laws. That is the success story in Colombia that is working.
    It is the tendency of the human person anywhere they live 
to want to live in a settled, ordered society under the rule of 
law. That is the great thing we have in our kit bag that the 
jihadist forces and other forces around the world don't have. 
That is what we have to export. Whether we do it with Special 
Forces or conventional forces trained to be advisers, it 
doesn't matter. My point would be that the effort of the United 
States Government, however organized, should be to support 
governments around the world that are struggling against these 
kind of disruptive forces to reestablish the rule of law in 
their countries.
    I have reached a point in my studies where I say if we do 
that successfully, then if we deploy conventional military 
forces in any case other than a direct attack on us, it 
represents a failure of U.S. policy. We should be able to focus 
our efforts so successfully that we have a lot of Colombias out 
there who manage the problems in their own countries with our 
help. And by the way, the United States DEA and Defense 
Department works very, very comfortably with Colombia, who is 
settling their own problems, which are our problems as well.
    We don't have to fight every war. We have to be able to 
support the people who want to bring justice and law to their 
countries. That in the beginning, when I was in Special Forces, 
and probably still is, was the ultimate objective of those 
kinds of operations anyway. And sir, that would recommend how 
your committee could do great work driving in that direction.
    Mr. Thornberry. And just on that for a second, do you think 
there are enough commonalities in how that is done, despite 
differences in culture and regions and the nature of the threat 
and that sort of thing? I mean, it has taken us--Colombia is a 
tremendous success, Philippines is another tremendous success, 
but it has taken us quite a while to get it down. And part of 
the question is, do we have a decade or whatever to figure out 
what is going on on the ground, to train our people up, and 
then to go implement it? I mean I think the world is moving 
faster than that.
    Colonel Killebrew. Actually, I think we have the time. I 
think one of the great advantages we have now is in the last 10 
years it has certainly sensitized the Armed Forces and the 
young officers and young NCOs and the other agencies of 
Government to this kind of a problem. I do think, though, that 
what we have to start with is going to those countries rather 
humbly and saying how do we help you? How do we not change your 
institutions but reinforce what you are doing? The case in 
Colombia, that is what we did. It took us a decade. We were 
down there longer than that, but the real change started in the 
year 2000. Armies around the world everywhere are kind of 
similar. I can talk to a soldier from any country and 
understand that. Police forces are very different. And we go to 
another country's police forces with a different kind of an 
understanding, different skills. The same is true of 
legislators.
    As you know, we have had very close ties between the 
Colombian legislative branch and ours. I think these things are 
not impossible. I think it is a thing that ties together 
everything we have talked about here today, and that we have to 
get started.
    Mr. Thornberry. I agree, by the way. But it is just helpful 
to flesh out and think a little deeper about it. I have a 
number of other issues, but I may not be able to get to all of 
them, including the sorts of technology we need to invest in to 
help with these capabilities, for example greater emphasis on 
non-lethals has always been an interest for me. Dr. Jones has 
talked about information operations. How successful we have 
been on human terrain teams as we have tried to figure out the 
people, human landscape. And then contracting, and how--whether 
we have the flexibility within the current authorities to do 
that as we apply this in a variety of situations. I may pursue 
those in a different way, if I can. At this time I would yield 
to Mr. Langevin for other questions he has.
    Mr. Langevin. Thank you, Mr. Chairman. Again, thanks to our 
panel. You know, if I could just revisit the discussion we had 
with respect to Islamist groups in particular, I know Iran and 
their connections with Latin American criminal organizations. I 
know we were focused on Iran, but is it my understanding that 
in the broader context other Islamic groups have these 
connections with the criminal groups? And if so, what is the 
extent of the collaboration between the groups? And are these 
relationships likely to mature in the future?
    Colonel Killebrew. Well, sir, the answer to the first 
question is I don't know, and I don't think anybody totally 
knows now. We know that the Saudi Arabian hit, or the Saudi 
Arabian attempt on the Saudi ambassador was probably approved 
at the highest levels of the Iranian Government. But what those 
contacts are in the region we don't know. We know that the Qods 
Force, the IRGC [Iranian Revolutionary Guard Corps], and the 
Mexican cartels, and the FARC are all deeply involved in the 
drug trade, and frequently collaborate. What goes on inside 
that collaboration I don't think we know for sure. We certainly 
couldn't discuss in an open forum if we did. Your second 
question was what can we do about it?
    Mr. Langevin. Are these relationships likely to mature?
    Colonel Killebrew. I think they will. That is my opinion. I 
think that it is in the nature of clandestine and covert 
operations to get better as time goes on. I think there have 
been a couple of incidents around the United States that 
indicate they are trying out relationships now. I think as time 
passes, both the Qods Force and the various cartels--that by 
the way will be doing this for money, not for ideology--will 
probably improve. And I think this feeling is shared by a 
member of the Los Angeles Police Department who is a real 
expert. I think there is a real danger we are going to start 
seeing car bombs in some parts of the country unless we are 
more successful in cutting it off.
    Mr. Langevin. And that goes to the second part of that 
question, the types of irregular warfare challenges that this 
development poses will be exactly what types of things we are 
going to see. And you touched on clearly one of them.
    Colonel Killebrew. That is correct. There was an incident 
in Arizona just very recently, I believe it was Arizona, where 
the Border Patrol was chasing a car, managed to stop it with 
caltrops, and as they approached the car, the guy blew himself 
up in the car. Those are the kinds of small incidents we are 
seeing now that in my view should be raising some concern in 
the Intelligence Community. If you ever go into closed session, 
that would be a good question to ask.
    Dr. Jones. Sir, on the Iranian front, including in Latin 
America, what we see, based on some research, is not just the 
Hezbollah activity in multiple countries, and the state to 
state with Iran's relationship with Venezuela, Bolivia, Ecuador 
and a range of other countries, but is a much more subtle 
effort to push and work through Shi'a communities across Latin 
America, including Mexico. I would expect that as Iran expands 
its power and tries to expand its power it will continue to 
reach out, frankly as the Soviets did during the Cold War, to 
proxy organizations, whether they are groups like Hezbollah. I 
have written also about Iranian-Al Qaeda connections in Foreign 
Affairs. But I would say what is discouraging is if one looks 
at some of the use by Mexican cartels of improvised explosive 
devices south of the border, including vehicle-borne improvised 
explosive devices, they have not gotten that expertise from the 
global jihadists, they have gotten it from buying off and 
getting training from former, in some cases, current Mexican 
security officials who have been trained in these things. But 
what we have also seen is a lot of the technology techniques, 
with the proliferation of social media, is capable of being 
pushed around on not just the Internet, but on social media.
    So Mexican cartels, for example, have downloaded this 
information. This is why I would strongly suspect that at some 
point--well, we have seen this. The Faisal Shahzad attack, 
attempted attack in Times Square was a vehicle-borne improvised 
explosive device. He got that capability in the Pakistan area. 
The year before, Najibullah Zazi, they were suicide bombs based 
very much like the UK 2005 London attacks. The ability, with 
communications media today, to push lessons on IEDs is deeply 
concerning. So it is not just the Islamist groups, it is not 
just Sunni or Shi'a, and it is not just the connection with 
these groups, but it is also the ability to proliferate that 
information and to be able to download it and pull it from 
other sources is what has enabled even the cartels in Mexico to 
improve their tactics, techniques, and procedures.
    That is very concerning. And as we look at the special 
interest alien networks that are going into and out of the 
United States to Somalia and a range of other countries, you 
better believe that not only are there people leaving and 
coming into the United States with that expertise, but they are 
able to educate others.
    So I think you have put your finger on something that is 
deeply concerning. And as we look at the countries that this 
has proliferated on, there were no suicide attacks in 
Afghanistan before 2001. No suicide attacks in Pakistan. No 
suicide attacks historically in Iraq. They have proliferated in 
a range of the countries we are talking about.
    Mr. Langevin. Thank you. Colonel, unless you had something 
else----
    Colonel Maxwell. I would just add one, take a slightly 
different look. I also am concerned with what happens to our 
interests outside of the United States. I think the threats 
outlined are very important. But I think we should also just 
recall recently what Iran potentially did in Thailand, in India 
against Israelis. I think that it is not a stretch that that 
could happen against American targets overseas in other 
locations as well. We have got to protect the homeland, but we 
have a lot of Americans and interests around the world. And I 
think that it is not a stretch for them to eventually become 
targets in those other countries.
    Mr. Langevin. True. Point well taken. Thank you, gentlemen. 
I yield back.
    Mr. Franks. [Presiding.] Dr. Jones, in your written 
statement you mentioned programs carried out by our Special 
Forces to empower the Afghans in matters of security, and 
economics, and government. However, Iran and Afghanistan, as 
you know, recently signed an agreement to increase economic 
ties between the two countries, which at least, in my mind, 
indicates that Iran is also seeking to influence the Afghan 
people in these matters and to marginalize U.S. interests 
ultimately. How well prepared are you to respond to these 
increasing Iranian elements of influence and ensure that 
whatever progress we have made in Afghanistan at such great 
cost in American lives and material is not wasted by what could 
turn out to be a precipitous withdrawal? Do you have any 
thoughts along those lines?
    Dr. Jones. Sir, I do. On the Iranian front in Afghanistan, 
I would, to put this in broader context, what I would argue is 
if there is a quick withdrawal from Afghanistan, the concern is 
not just Iran, but is multiple governments in the region, as we 
have seen historically in the 1990s, will likely back a range 
of its proxy organizations in the country. That means the 
Russians, the Indians, clearly the Pakistanis, the Chinese, and 
the Iranians.
    The Iranian threat tends to be primarily in the west and 
the Hazara regions in the center of the country, as well as in 
some parts of the south. I do think that if the U.S. were to 
precipitously withdraw from Afghanistan, there would, without 
question, be an Iranian effort to increase its influence, 
economic, security, political influence in Afghanistan without 
question. We have seen it on Iran's other border in Iraq after 
the U.S. departure. That should be a lesson.
    But I would also say that it is not just Iran. We would 
also see a range of other countries, including Pakistan, 
pushing out its proxies through Pashtun groups. So your concern 
I would say in many ways is slightly broader.
    Mr. Franks. I think if my 3-year-old twins were analyzing 
the situation, they would essentially conclude that the Iranian 
leadership isn't very nice. So I continue to be concerned about 
them obviously.
    Last question. And I hope that you will try not to succumb 
to the failure of imagination, and that you will try to see the 
world as it is, and not as you would like it to be. If you were 
to give this committee what you thought to be the most 
prevalent and the most dangerous irregular warfare tactic or 
challenge that we would face, what would that be? And I will 
start with you, Dr. Jones, and see if everybody would give us 
just a brief response.
    Dr. Jones. I still think a low probability but a very 
dangerous development would be, and one that I don't think we 
have completely got our hands on, would be the ability of a 
nonstate actor to smuggle in, it wouldn't have to be a nuclear 
device, but a chemical or biological device into--or 
radiological--into the United States to target U.S. citizens. 
That is something I think that would have a very high impact, 
low probability. But the continuation among, say, Al Qaeda in 
the Arabian Peninsula of research on this component is deeply 
concerning. It is one thing to take an aircraft down, as 
Abdulmutallab tried in December of 2009. But with continuing 
research along these lines from some of the affiliates, this is 
a very concerning development. And if one were to add in Iran 
with nuclear weapons and increasing friction with the United 
States and others, you know, there are a range of low 
probability, but highly concerning roles along those lines.
    Mr. Franks. And you see that as more dangerous than perhaps 
if Iran gained access to a warhead and tried to do some sort of 
an offshore EMP attack on the country?
    Dr. Jones. I think both would be extremely dangerous.
    Mr. Franks. Sub-optimal.
    Dr. Jones. Sub-optimal, yes, sir, as my 4-year-old would 
say, I think.
    Mr. Franks. Yes, sir. All right. Please, go ahead.
    Colonel Killebrew. I get two answers, sir, with your 
courtesy. One is nuclear proliferation, to include nuclear 
strikes inside the United States. I think with everything we 
have talked about, we can never forget nuclear weapons. They 
are always there.
    The second is a failure of legitimate governments around 
the world and their fall to jihadists, or criminals, or 
whatever we choose to call it. In my mind, they are the same 
problem. If, in 50 years, we wind up with a few legitimate 
surviving governments surrounded by governments that have 
collapsed and are ruled by jihadists or criminals, we will be 
in a very different strategic situation from where we want to 
be.
    Colonel Maxwell. Sir, I didn't get to talk about it during 
the testimony, but my imagination leads me to fear what happens 
on the Korean Peninsula in North Korea and the collapse of that 
regime and the irregular threats that are going to emanate from 
that peninsula, which is going to draw in the United States as 
allies to South Korea, China, potentially Russia, affect Japan. 
The nexus of the world's largest economies on that peninsula, 
it will have global effects. And I think that what will arise 
from a collapsed or post-conflict North Korea, the nature of 
the population, the nature of the weapons that they have, the 
guerrilla mind-set of the people and that dynasty, I think we 
are going to face an irregular threat that we have not 
comprehended. And that is, not to discount any of the other 
threats, I agree with those, but I think that is one that we 
have not fully imagined.
    Mr. Franks. Well, I appreciate that. And I am concerned 
that if Iran is as belligerent as they are now without nuclear 
weapons, I wonder what their posture will be as they actually 
gain them. Anybody else? You know, I started my line of 
discussion just thanking all of you. And let me end there, and 
say thank you for what you do for this country. Those 3-year-
old twins mean a lot to me. And I know that they have a much 
better chance of walking in the sunlight of freedom because of 
people like you. So I hope that you keep on imagining and 
writing notes to yourself and keep on trying to outsmart the 
bad guys. Thank you.
    [Whereupon, at 4:11 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 27, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 27, 2012

=======================================================================

      
                    Statement of Hon. Mac Thornberry

   Chairman, House Subcommittee on Emerging Threats and Capabilities

                               Hearing on

           Understanding Future Irregular Warfare Challenges

                             March 27, 2012

    Last fall this subcommittee held a hearing to begin 
exploring the possibility that what we call irregular warfare 
may be a regular, that is frequent, challenge for us in the 
future, as, in fact, it certainly has been in the past. And we 
began to explore how we ensure how the hard-won lessons of the 
past decade are not simply shelved and forgotten as we ``get 
back to normal.''
    Today we want to go a little deeper in looking at what 
types of future irregular warfare challenges we are likely to 
face, what strategies are best suited to deal with these future 
challenges, and what examples or models may exist to support 
those strategies and effectively deal with irregular 
challenges.
    Let me just say that I have read all of the statements from 
all of the witnesses, and they were excellent. Each of you 
provided well-written statements that were thought-provoking. I 
have to say, Colonel Maxwell, I got some chuckles out of your 
description of the naming game that goes on in the Pentagon, 
and it made me feel better. Because sometimes I hear all of 
these terms that describe the same thing, and as I am trying to 
sort through what the difference in this, that, or the other 
thing is, it is somewhat reassuring to know that other people 
have the same issue, and that part of what is going on is just 
to make sure that we don't understand what is going on.
    I appreciate very much the statements that each of you 
provided, and I look forward to the subcommittee getting down 
into asking more questions about them.

                  Statement of Hon. James R. Langevin

Ranking Member, House Subcommittee on Emerging Threats and Capabilities

                               Hearing on

           Understanding Future Irregular Warfare Challenges

                             March 27, 2012

    Thank you to our witnesses for appearing before us today. 
Congress has the constitutional responsibility to ensure that 
our military is fully prepared to defend our country and our 
vital interests. To do that effectively, we must understand the 
full range of potential security challenges we may face. 
Irregular Warfare is just such a challenge, and it is fitting 
that we are addressing it today in the Emerging Threats and 
Capabilities Subcommittee.
    The term ``IW'' evokes mental images of shadowy adversaries 
on uncertain or ill-defined battlefields, and there is 
certainly some truth in that. Terrorism is a classic form of 
IW, but it is only one subset. Enemies will attempt to forgo a 
direct confrontation in one of our areas of strength, instead 
seeking an asymmetrical advantage in an area where we may be 
less prepared or less able to defend ourselves. For example, 
our formidable joint formations of air, ground, sea, and space 
forces quickly become ineffective if a cyber attack disrupts 
our command and control or the critical infrastructure on which 
our bases depend. And even our most precise weapons become 
difficult to employ against an enemy who has embedded himself 
within a civilian population.
    The nature of future warfare is uncertain, but what is 
certain is that potential challengers will seek ways to 
circumvent our strengths and exploit our weaknesses. Therefore, 
it is our responsibility to educate ourselves about developing 
trends, capabilities, technologies, and tactics that an 
adversary might use to find an advantage against us, or our 
partners, and then posture our forces properly to meet that 
sort of threat. We need to develop the agile thinking necessary 
to make prudent defense choices, and this hearing is an 
important part of that process.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 27, 2012

=======================================================================

      
                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Describe North Korean IW capabilities. Could Combined 
Forces Command effectively deal with these challenges in a defense of 
Korea scenario? How would North Korea use cyber-warfare in coordination 
with other IW assets in such a scenario?
    Colonel Maxwell. North Korea (DPRK) has a broad range of IW 
capabilities beginning with the world's largest Special Operations 
Forces (SOF) consisting of 80,000 to 120,000 personnel, depending on 
how SOF are defined as they range from individual agents through small 
commando raiding forces to large unit light infantry Ranger-type 
forces. SOF will conduct a wide range of operations in time of war to 
include subversion and sabotage throughout the Korean Theater of 
Operations as well as in Japan and even in other parts of the world 
specifically targeting U.S. and allied capabilities. North Korea 
possesses multiple means of infiltration by air in such aircraft as the 
bi-plane AN-2 COLT, by sea in submarines, semi-submersibles, and 
surface vessels and both overland crossing front lines as well as 
tunnels that have likely been constructed under the De-Militarized Zone 
(DMZ). We can expect North Korea SOF to wear South Korean military and 
police uniforms as well as civilian clothes. Attacks on U.S. facilities 
by North Korean SOF in Republic of Korea (ROK) uniforms will sow 
distrust between ROK and U.S. forces. They will also link up with in-
place sleeper agents and attempt to recruit South Korean sympathizers. 
Their targets will include military and civilian, from air bases and 
missile defenses to logistics and communications as well as 
headquarters capabilities. They will attack civilian targets of all 
kind with the intent to cause chaos among the civilian population to 
divert security forces from supporting the defense of the ROK. SOF will 
also conduct operations to complement the other asymmetric capabilities 
such as when missiles are used to attack alliance air bases. They will 
target first responders to attacks and continue follow up attacks to 
increase both the lethality and the chaos caused by missile strikes. 
Finally, we can expect them to use various types of biological agents 
to contaminate water, food, and even fuel to disrupt alliance defensive 
efforts. Furthermore, the North can be expected to employ extensive 
propaganda operations to influence the ROK public as well as the US and 
international community. North Korea has studied extensively U.S. and 
insurgent operations in Afghanistan and Iraq and we should expect to 
see false reports of atrocities being committed by ROK and U.S. forces 
and similar propaganda building on the lessons learned from other 
campaigns around the world.
    While all these capabilities provide the North with a range of 
irregular or asymmetric threats valuable in any war scenario, these 
same capabilities provide the foundation for a resistance force that 
will prove extremely capable and dangerous in any post-conflict or 
post-regime collapse situation.
    The Combined Forces Command has developed the plans and conducts 
the training to counter these threats. In the rear areas the 
responsibility will rest with the Second ROK Army commanded by a Korean 
four star general and it is likely that the Korean government will 
impose martial law in order to counter these threats and maintain 
population and resources control which is critical to any counter-SOF 
fight. The ROK and U.S. Naval forces will establish defenses to counter 
maritime infiltration and the combined air defense forces train to 
counter the air infiltration threats. In addition, U.S. assets 
effective in rear area security such as the AC-130 gunship and 
helicopter assets will support the ROK ground forces against SOF 
threats. Many of the intelligence, surveillance, and reconnaissance 
(ISR) capabilities and other counterinsurgency (COIN) techniques and 
platforms developed to support operations in Iraq and Afghanistan will 
be effective in the counter-SOF fight in South Korea. Many of these 
platforms will be vulnerable to forward area combat operations but will 
be very useful in the ROK rear area. While the Combined Forces Command 
plans and trains well to defend against these threats, it is difficult 
to defend against all the threats and be one hundred percent effective. 
Two anecdotes illustrate the difficulty. First, the recent sinking of 
the Choenan by a North Korean submarine indicates that it has a capable 
subsurface force. It can both attack naval vessels as well as 
infiltrate SOF. Second, the 1996 Sango Submarine incident that washed 
up on the east coast of the ROK before completing its infiltration 
mission shows how difficult it is to capture or kill some 20+ SOF 
infiltrators when they were on the run trying to escape the ROK 
military manhunt and return to the North. This illustrates how 
difficult counter-SOF operations will likely be. There will be many CFC 
successes against North Korean SOF but there will be some attacks by 
the North that will get through. As the saying goes it is much easier 
conducting SOF attacks than it is defending against them. However, the 
cumulative effects of a few successful SOF attacks will not cause 
mission failure for CFC but will nonetheless cause problems. The 
training time and resources devoted to countering North Korean SOF and 
irregular capabilities will be well spent in the long run.
    The DPRK will make extensive use of cyber capabilities in an 
attempt to disrupt, degrade, and influence ROK-U.S. alliance operations 
and will focus at all levels from the political and strategic to the 
operational and tactical. There are three examples of cyber operations 
that might foreshadow the types of operations to be conducted. First, 
the 1999 book Unrestricted Warfare by the two Chinese Colonels provides 
a template for a wide range of cyber operations from computer network 
attack against military command and control to financial markets 
outside the theater of operations. We should expect the North to 
conduct globally targeted cyber operations. The second example is how 
the Chinese are conducting cyber operations. One of the traditional 
Chinese military targets has been the unclassified computer networks of 
U.S. military logistics and in particular those networks that control 
the deployment of forces (Time Phased Force Deployment Data (TPFDD)). 
Interruption of or degradation of the flow of U.S. reinforcing forces 
will be an obvious effect the North will try to achieve. Third, current 
DPRK cyber operations likely indicate some of the activities they will 
conduct such as targeting ROK military computer networks. Finally, they 
are likely to exploit the full range of cyber capabilities to include 
social media to support their propaganda efforts. They will not only 
introduce false information (to include photos and video) to the 
internet, they will provide information to international news 
organizations to affect public opinion in the ROK and around the world.
    In conclusion, both irregular and cyber capabilities are key 
elements of any North Korean campaign. However, if the regime collapses 
we can expect elements of the military and security forces to attempt 
to employ these same capabilities as part of the resistance to ROK 
reunification efforts. The ROK-U.S. alliance takes these threats very 
seriously and trains hard to be able counter them. Investment in 
counter-SOF and rear area operations in the ROK by the ROK government 
and enabling capabilities from the U.S. will be effective when North 
Korea attacks and at the same time if the regime collapses, those same 
capabilities will be useful against resistance forces. But it should be 
noted that there are no 100 percent effective defenses against 
irregular and cyber threats. The alliance must be both psychological as 
well as physically prepared for the few successes that the DPRK will 
likely be able to achieve. This is important because over-reaction in 
response to such threats may magnify the effects of these limited 
successful attacks. The alliance is sufficiently prepared to deal with 
these threats and must have the requisite resources provided on a 
continual basis to sustain readiness.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
